 FEDERAL ELECTION COMMISSION


  OFFICE OF INSPECTOR GENERAL





            FINAL REPORT


Audit of the Federal Election Commission’s

  Fiscal Year 2010 Financial Statements





             November 2010


       ASSIGNMENT No. OIG-10-01

                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:    	       The Commission

FROM:          	Inspector General

SUBJECT: 	    Audit of the Federal Election Commission’s Fiscal Year 2010 Financial
              Statements

DATE: 	        November 12, 2010


Pursuant to the Chief Financial Officers Act of 1990, commonly referred to as the “CFO
Act,” as amended, this letter transmits the Independent Auditor’s Report issued by Leon
Snead & Company (LSC), P.C. for the fiscal year ending September 30, 2010. The audit
was performed under a contract with, and monitored by, the Office of Inspector General
(OIG), in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.

Opinion on the Financial Statements

LSC audited the balance sheet of the Federal Election Commission (FEC) as of
September 30, 2010, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity (the financial statements) for the year then
ended. The objective of the audit was to express an opinion on the fair presentation of
those financial statements. In connection with the audit, LSC also considered the FEC’s
internal control over financial reporting and tested the FEC’s compliance with certain
provisions of applicable laws and regulations that could have a direct and material effect
on its financial statements. The financial statements of the FEC as of September 30,
2009, were also audited by LSC whose report dated November 13, 2009, expressed an
unqualified opinion on those statements.

In LSC’s opinion, the financial statements present fairly, in all material respects, the
financial position, net cost, changes in net position, budgetary resources, and custodial
activity of the FEC as of, and for the year ending September 30, 2010, in conformity with
accounting principles generally accepted in the United States of America.
Report on Internal Control

In planning and performing the audit of the financial statements of the FEC, LSC
considered the FEC’s internal control over financial reporting (internal control) as a basis
for designing auditing procedures for the purpose of expressing their opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness
of the FEC’s internal control. Accordingly, LSC did not express an opinion on the
effectiveness of the FEC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. According to the American Institute of Certified
Public Accountants:

   •	 A control deficiency exists when the design or operation of a control does not
      allow management or employees, in the normal course of performing their
      assigned functions, to prevent or detect misstatements on a timely basis.

   •	 A significant deficiency is a control deficiency, or combination of control
      deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
      process, or report financial data reliably in accordance with generally accepted
      accounting principles such that there is a more than remote likelihood that a
      misstatement of the entity’s financial statements that is more than inconsequential
      will not be prevented or detected by the entity’s internal control.

   •	 A material weakness is a significant deficiency, or combination of significant
      deficiencies, that results in more than a remote likelihood that a material
      misstatement of the financial statements will not be prevented or detected by the
      entity’s internal control.

LSC’s consideration of internal control was for the limited purpose described in the first
paragraph in this section and would not necessarily identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses. LSC did not
identify any deficiencies in internal control that LSC would consider to be material
weaknesses, as defined above. However, LSC identified, as listed below, two
deficiencies in internal controls that LSC considers to be significant deficiencies.

   •	 Internal Controls over Financial Reporting

   •	 Information Technology (IT) Security Control Weaknesses


Report on Compliance with Laws and Regulations

FEC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FEC’s financial statements
are free of material misstatements, LSC performed tests of compliance with certain
                                              2

provisions of laws and regulations, noncompliance which could have a direct and
material effect on the determination of financial statement amounts, and certain other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. LSC did not test
compliance with all laws and regulations applicable to FEC.

The results of LSC’s tests of compliance with laws and regulations described in the audit
report disclosed no instance of noncompliance with laws and regulations that are required
to be reported under U.S. generally accepted government auditing standards or OMB
guidance.

Audit Follow-up

The independent auditor’s report contains recommendations to address deficiencies
found by the auditors. Management was provided a draft copy of the audit report for
comment and generally concurred with the findings and recommendations. In
accordance with OMB Circular No. A-50, Audit Follow-up, revised, the FEC’s corrective
action plan is to set forth the specific action planned to implement the recommendations
and the schedule for implementation. The Commission has designated the Chief
Financial Officer to be the audit follow-up official for the financial statement audit.

OIG Evaluation of Leon Snead & Company’s Audit Performance

We reviewed LSC’s report and related documentation and made necessary inquiries of its
representatives. Our review was not intended to enable the OIG to express, and we do
not express an opinion on the FEC’s financial statements; nor do we provide conclusions
about the effectiveness of internal control or conclusions on FEC’s compliance with laws
and regulations. However, the OIG review disclosed no instances where LSC did not
comply, in all material respects, with Government Auditing Standards.

We appreciate the courtesies and cooperation extended to LSC and the OIG staff during
the audit. If you should have any questions concerning this report, please contact my
office on (202) 694-1015.




                                                    Lynne A. McFarland
                                                    Inspector General

Attachment

Cc: 	   Alec Palmer, Acting Staff Director/Chief Information Officer
        Mary G. Sprague, Chief Financial Officer
        Christopher P. Hughey, Acting General Counsel



                                           3

 FEDERAL ELECTION COMMISSION
 

      Audit of Financial Statements
 

       As of and for the Years Ended
 

       September 30, 2010 and 2009




                   Submitted By
 


            Leon Snead & Company, P.C.

Certified Public Accountants & Management Consultants
                                    TABLE OF CONTENTS
 




                                                                                                                            Page


Independent Auditor’s Report..............................................................................................1
 


       Summary.....................................................................................................................1
 


       Opinion on the Financial Statements ..........................................................................2
 


       Internal Control over Financial Reporting..................................................................2
 


             1. Improvements Needed in Controls over Financial Reporting ........................3
 


             2. IT Security Control Weaknesses.....................................................................7
 


       Compliance with Laws and Regulations...................................................................17
 


       Appendix 1 - Status of Prior Year Recommendations..............................................20
 


       Appendix 2 - Agency Response to Draft Report ......................................................22
 





                                                                 i
tests of the FEC’s compliance with certain provisions of applicable laws and regulations,
and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the FEC as of September 30, 2010
and 2009, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position, net cost, changes in net position, budgetary resources, and
custodial activity of the FEC as of and for the years ended September 30, 2010 and 2009,
in conformity with accounting principles generally accepted in the United States of
America.

The information in the Management’s Discussion and Analysis section is not a required
part of the basic financial statements but is supplementary information required by
accounting principles generally accepted in the United States of America or OMB
Circular A-136, Financial Reporting Requirements. We have applied certain limited
procedures, which consisted principally of inquiries of FEC management regarding the
methods of measurement and presentation of the supplementary information and analysis
of the information for consistency with the financial statements. However, we did not
audit the information and express no opinion on it. The Performance and Accountability
Report, except for Management’s Discussion and Analysis, is presented for the purposes
of additional analysis and is not a required part of the basic financial statements. Such
information has not been subjected to the auditing procedures applied in the audit of the
basic financial statements and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the financial statements of the FEC as of and for
the years ended September 30, 2010 and 2009, in accordance with auditing standards
generally accepted in the Unites States of America, we considered the FEC’s internal
control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not
for the purpose of expressing an opinion on the effectiveness of the FEC’s internal
control. Accordingly, we do not express an opinion on the effectiveness of the FEC’s
internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis.
A material weakness is a deficiency, or combination of significant deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of



Leon Snead & Company, P.C.                      2
the financial statements will not be prevented or detected and corrected on a timely basis.
A significant deficiency is a control deficiency, or combination of control deficiencies,
that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance of the FEC.

Our consideration of internal control was for the limited purpose described in the first
paragraph in this section of the report and would not necessarily identify all deficiencies
in internal control that might be deficiencies, significant deficiencies or material
weaknesses. We did not identify any deficiencies in internal control that we consider to
be material weaknesses, as defined above. However, as discussed below, we identified
certain deficiencies in internal control that we consider to be significant deficiencies.

Findings and Recommendations

1. Improvements Needed in Controls over Financial Reporting

   a. Accrual of Accounts Payable in Error

       The FEC’s controls over the accrual of payables for financial statement
       presentation and the posting of these entries to the general ledger were not
       effectively implemented. Our review of September 30, 2010 financial statements,
       and a sample of transactions processed during Fiscal Year 2010 identified a
       duplicate accrual of $139,969.99 posted to the general ledger by Office of the
       Chief Financial Officer (OCFO) personnel. We attributed this problem to the
       need for more effective implementation of controls over the accounts payable
       accrual process.

       The error we identified occurred when an accounting clerk did not follow OCFO
       policy to ensure that the invoice payment was not pending in Pegasys prior to
       recording the accrual transaction. In addition, while the OCFO’s supervisory
       review process detected this error, actions were not taken to ensure that the error
       was, in fact, corrected. When discovered during the audit, OCFO personnel
       adjusted the financial statements to correct the error. If left uncorrected, liabilities
       on FEC’s 2010 Balance Sheet and costs on the 2010 Statement of Net Cost (SNC)
       would have been overstated by approximately $140,000. Conversely, had this
       error not been corrected, costs on the 2011 SNC would have been understated by
       this same amount.

       OCFO officials advised they plan to review the current accounts payable accrual
       process, and determine if there is a better approach to calculating the accrual
       estimate. They have agreed that once the OCFO ensures that the appropriate
       process is in place, the OCFO will train staff.

       Statement of Federal Financial Accounting Standards (SFFAS) No. 1, Accounting
       for Selected Assets and Liabilities, provides that for financial reporting purposes,
       liabilities are recognized when goods and services are received or are recognized



Leon Snead & Company, P.C.                       3
       based on an estimate of work completed under a contract or agreement.
       Paragraph 77 states “When an entity accepts title to goods, whether the goods are
       delivered or in transit, the entity should recognize a liability for the unpaid
       amount of the goods. If invoices for those goods are not available when financial
       statements are prepared, the amounts owed should be estimated.”

       Recommendation

       1.	 Provide additional training to personnel involved in accounts payable control
           processes, and stress to supervisors that reviews of accounts payable accruals
           must be more effective. Ensure when errors are noted, the reviewer follows-
           up to ensure corrections are made.

       Agency Response

       Management concurs that controls over the accounts payable accrual process
       should be strengthened to ensure that potential misstatements are identified and
       corrected in a timely manner. However, FEC management does not concur that
       the $140 thousand misstatement noted in the auditor’s report contributes to a
       significant deficiency in internal control over financial reporting.

       During FY 2011, management will perform the following to strengthen controls
       over the accounts payable accrual process:
          •	 Perform a comprehensive review of the accounts payable accrual
              processes; and
          •	 Provide additional training to ensure that agency guidelines are followed
              and that transactions are processed, reviewed, and reconciled consistently,
              completely, timely, and accurately.

       Auditor Comments

       We identified this error during our final testing of 2010 transactions. Our testing
       during FY 2009 also identified two invoices that were improperly recorded. The
       error in FY 2010 was identified by OCFO personnel but not corrected during
       supervisory review. We believe this represents a deficiency in implementation of
       internal controls, and does not represent “an isolated event” as stated by FEC
       officials since the auditors have reported problems in this area the last four years.

   b.	 FEC Needs to Convert Manual Accounting Systems

       FEC has not yet converted all manual systems and processes to automated
       systems that are integrated or interfaced with the core accounting system as we
       recommended in our prior audit. We attribute the problem in part, to: (1)
       difficulty in coordinating with FEC’s service providers on the development of a
       time-phased plan to convert the manual interface of payroll systems and processes
       to automated systems, and (2) the opinion of OCFO personnel that the costs to



Leon Snead & Company, P.C.	                    4
       convert the manual accounts receivable processes exceed the benefits of
       automating the system.

       FEC uses spreadsheets and an outdated PeopleSoft platform to perform selected
       accounting operations. The financial management processes that still utilize
       significant manual operations include:

       •	 Accounting for collections of fines and penalties. The OCFO requests
          accounts receivable information from three divisions. After the OCFO obtains
          the relevant information, the data is input into a spreadsheet. A standard
          voucher is prepared monthly and submitted to the service provider to record
          the accounting information into the FEC’s core accounting system.
          Collections, however, are processed to the general ledger when the payments
          are received. Therefore, only at the end of each month after the standard
          voucher is posted to the general ledger does the accounts receivable reflect an
          accurate balance.

       •	 The payroll system does not interface with the accounting system; therefore,
          FEC must use a PeopleSoft application that is no longer supported. This
          process also requires FEC to perform manual operations to reconcile the
          payroll data and prepare standard vouchers to input the payroll data into its
          accounting system. OCFO is actively working with its payroll service
          provider to interface the payroll system and the core accounting system.

       OMB Circular No. A-127, Financial Management Systems, defines a core
       financial system as the system of record that maintains all transactions resulting
       from financial events. It may be integrated through a common database or
       interfaced electronically to meet defined data and processing requirements. The
       core financial system is specifically used for collecting, processing, maintaining,
       transmitting, and reporting data regarding financial events. Other uses include
       supporting financial planning, budgeting activities, and preparing financial
       statements. Any data transfers to the core financial system must be: traceable to
       the transaction source; posted to the core financial system in accordance with
       applicable guidance from the Federal Accounting Standards Advisory Board
       (FASAB); and in the data format of the core financial system.

       OCFO officials concurred that FEC should consider automating manual processes
       whenever it is appropriate and cost-effective to do so. However, OCFO officials
       believe that it is not cost-effective to convert its manual accounts receivable
       system. Concerning the continued use of the PeopleSoft application that is no
       longer supported, OCFO officials advised that FEC has held several meetings
       over the course of FY 2010 to evaluate the potential risks, benefits, and cost-
       effectiveness of a direct interface between the National Finance Center (NFC)
       Payroll and Personnel System and General Services Administration (GSA)
       Pegasys Financial Management System.




Leon Snead & Company, P.C.	                    5
       We continue to believe that it is important for FEC to convert its manual
       processes to automated systems that are integrated or interfaced with the core
       accounting system.

       Recommendation

       2.	 Convert FEC manual systems and processes to automated systems that are
           integrated or interfaced with the core accounting system.

       Agency Response

       Management concurs that it is important for agencies to consider automating
       manual processes whenever it is appropriate and cost-effective to do so. As an
       example, the FEC converted its fixed assets to the General Services
       Administration (GSA) Fixed Asset System (Subsidiary Ledger) which has a direct
       interface within the GSA Financial Management System, effective in FY 2010.

       Management disagrees with the recommendation that all manual processes should
       be automated. OMB Circular A-127, as revised, 2009, states that a financial
       management system “includes the core financial systems and the financial
       portions of mixed systems necessary to support financial management, including
       automated and manual processes, procedures, and controls, data, hardware,
       software, and support personnel dedicated to the operation and maintenance of
       system functions.” While the OCFO does have some manual steps in its financial
       process, the office has implemented compensating controls consistent with
       industry best practices to eliminate unnecessary risks.

       The FEC continues to evaluate the roles and responsibilities of all stakeholders to
       establish an electronic interface between NFC and GSA payroll and financial
       management systems and plans to complete the integration of those systems in FY
       2011.

       Additionally, the Accounts Receivable balance is immaterial to the FEC’s
       financial statements and the volume of transactions is minimal. The expense of
       migration to an automated process is currently not in the best interest of the FEC.
       Doing so would provide little benefit to the agency or the Federal Government.
       This practice is consistent with the latest draft of A-127 circulated October 15,
       2010.

       Auditor Comments

       In recent testimony before the U.S. House Oversight and Government Reform
       Subcommittee on Government Management, Organization, and Procurement; the
       Controller, Office of Management and Budget, stated that the financial
       management environment is changing from producing annual audited financial
       statements to producing financial reports more frequently, at a more granular



Leon Snead & Company, P.C.	                    6
        level, and accompanied by non-financial information. The Controller further
        noted that agencies’ financial systems are not sufficiently flexible or integrated
        with non-financial systems. In particular, OMB and Treasury, in coordination
        with the CFO Council, are working to deploy central, automated solutions that
        will reduce the cost and complexity of agency financial operations. The
        Controller concluded that federal agencies need to modernize their systems.

        In addition, we noted that a recent GAO report and correspondence from OMB
        provide that OMB has plans underway to, “…upgrade the quality and
        performance of federal financial management systems by leveraging shared
        service solutions and implementing other government wide reforms that foster
        efficiencies in federal financial operations. According to OMB, the goals … are
        to (1) provide timely and accurate data for decision making; (2) facilitate stronger
        internal controls that ensure integrity in accounting and other stewardship
        activities; (3) reduce costs by providing a competitive alternative for agencies to
        acquire, develop, implement, and operate financial management systems through
        shared service solutions; (4) standardize systems, business processes, and data
        elements; and (5) provide for seamless data exchange between and among federal
        agencies by implementing a common language and structure for financial
        information and system interfaces.”

        We continue to believe that it is important for FEC to convert its manual
        processes to automated systems that are integrated or interfaced with the core
        accounting system. It should be noted that this problem was also reported by the
        predecessor auditors as part of a material weakness in the 2008 audit report, and
        in our 2009 financial statement audit report.

2. IT Security Control Weaknesses

   FEC has either implemented corrective actions or has plans developed to address
   most of the IT control weaknesses we reported in our 2009 financial statement audit
   report. However, we found in our 2010 audit that some controls were not effectively
   implemented, and for two areas FEC did not agree to implement our
   recommendations. We attributed these conditions, in part, to the complexity of issues
   involved, and the funding necessary to complete all planned actions. As a result, FEC
   information and information systems are at additional risk until these corrective
   actions are fully implemented. Details of the issues noted during our 2010 audit are
   discussed below.

   a.      Configuration Management and FDCC Security Controls

        Additional actions are necessary before FEC meets best practices for
        configuration control, and Federal Desktop Core Configuration (FDCC)
        requirements. While FEC has established baseline configuration standards for a
        number of its systems, these standards were not effectively implemented for the
        laptops we tested.



Leon Snead & Company, P.C.                      7
       The FEC established baseline configuration security standards that identify
       specific services, such as Universal Plug and Play, Netmeeting Remote Desktop
       Sharing, Remote Desktop Help Session Manager, and Remote Registry access
       that should be disabled unless there is a specific business need for these services.
       However, our audit tests showed that these services had not been disabled, and
       users could manually start these services on laptop computers.

       In addition, the baseline configuration security standards required that on
       Windows XP machines the “administrator account” be renamed, and that access
       to administrator authorities is limited to users requiring such access. Based on our
       tests, we determined that users were provided local administrator rights allowing
       them to change settings, as well as the ability to start “services” manually. By
       using these authorities, users could, among other activities, override the FEC
       control setting which requires re-authentication after 30 minutes of inactivity.

       FEC has not yet fully implemented FDCC security control requirements that
       OMB established in 1997 as “best practices” security requirements for Windows
       computers. FEC has established a project to adopt selected control requirements
       and estimates that full implementation of selected controls will not be
       implemented until 2012. Our tests showed the following FDCC requirements
       have not yet been adopted by FEC.

          Access Control Objective              FEC Settings               FDCC         Meets or
                                                                        Requirements    exceed
                                                                                         FDCC
         Enforce password history    5 passwords remembered                  24           No
         Maximum password age        180 days                                60           No
         Minimum password age        0 days                                  1            No
         Minimum password length     8 characters                       12 characters     No
         Suspend inactive account    FEC activates screen saver; does    15 minutes       No
                                     not suspend session


       FEC plans to implement the FDCC requirements that the agency agrees to adopt
       in a phased approach for new workstations. FEC estimated implementation
       would be completed by 2012.

       NIST Special Publications 800-53, Recommended Security Controls for Federal
       Information Systems, provides the minimum controls that an agency should adopt
       in order to implement a configuration management control process.

       We discussed these issues during our audit with Office of the Chief Information
       Officer (OCIO) officials who concurred with our recommendations. OCIO
       officials advised they meet about 75 percent of FDCC requirements, and have



Leon Snead & Company, P.C.                          8
       plans to meet additional requirements when the FEC implementation process has
       been completed.

       Recommendations

       3.	 Ensure that FEC baseline configuration standards are implemented in
           accordance with FDCC requirements for all workstations.

       4.	 Perform periodic assessments of baseline configuration settings as part of
           FEC’s continuous monitoring program.

       Agency Response

       Management partially concurs with these recommendations and plans to make use
       of these best practices once the FEC’s FDCC project is fully implemented.
       However, the FEC reserves the right to implement only those settings that it
       considers advantageous to its computing environment. As indicated, FEC is
       already 75 percent FDCC compliant, and has developed a plan and timetable to
       achieve near 93 percent compliance. Per FDCC specifications, any recommended
       setting not implemented will include a documented justification.

       Auditor Comments

       FEC officials have partially concurred in our recommendations. However, FEC
       officials have reserved the right to implement only those settings that the agency
       considers advantageous to its operations. As discussed in OMB’s implementing
       guidance, OMB has determined that the FDCC settings provide the best approach
       to strengthening the security over workstations that operate in a Windows
       environment. We continue to believe that FEC should follow OMB guidance in
       this important IT security area.

   b.	 Scanning Process Needs Strengthening

       While FEC has established a framework to perform periodic vulnerability
       scanning, including a process to address the vulnerabilities identified through its
       scanning processes, workstations connected to the network are currently excluded
       from the FEC’s vulnerability scanning program. Without scanning of the
       individual workstations, FEC cannot detect potential vulnerabilities and assure
       that the devices are properly configured to meet FDCC and/or FEC security
       configurations.

       NIST Special Publications 800-53 establishes vulnerability scanning as one of the
       recommended security controls in the risk assessment control area. The control
       requirement provides that the organization scans for vulnerabilities in the
       information system and hosted applications, including when new vulnerabilities
       potentially affecting the system/applications are identified and reported.



Leon Snead & Company, P.C.	                    9
       During our audit, we discussed this matter with OCIO officials and they advised
       us that they plan to perform additional workstation scanning once the FEC’s
       FDCC project is fully implemented. OCIO officials added that they realize
       additional workstation scanning will help ensure continued adherence to best
       practices.

       Recommendation

       5.	 Include all components of the general support system, including workstations,
           into the organization’s vulnerability scanning process to ensure that the
           general support system, in its entirety, is periodically assessed.

       Agency Response

       Management concurs with this recommendation, and plans to make use of
       additional workstation vulnerability scanning once the FEC’s FDCC project is
       fully implemented. As a proactive solution and compensating control, the FEC
       has implemented an automated patching process to ensure all workstation
       operating system vulnerabilities are properly patched. Other compensating
       controls the Commission employs are real-time virus and adware detection. The
       Commission specifically scans workstations hard-drives, CD-ROMs, and flash
       drives for malicious code such as viruses; worms, trojan horses, spyware,
       keyboard loggers etc. Additional levels of workstation security includes
       workstation firewalls, real-time virus and adware detection and prevention,
       operating system and application password standards, two factor authentication,
       whole hard drive encryption, and 15 minute account lock-out.

       Auditor Comments

       Since FEC officials have agreed to implement the recommendation, we have no
       additional comments.

   c.	 Termination of Separated Employees Access Authorities

       Controls established by FEC to ensure that separated employees access to the
       FEC network are timely removed did not function as designed. FEC policies and
       standards require the access authorities to be disabled within one business day,
       except for emergency situations when the account will be disabled immediately.

       FEC implemented the FEC System Access (FSA) system to control the addition
       and termination of users to its systems. We performed tests of this system as part
       of our 2010 tests of IT controls. We sampled 11 persons who had separated from
       FEC during the 2010 fiscal year, and obtained information from OCIO personnel
       as to the date the individuals’ access to the FEC network was disabled or
       terminated. OCIO officials advised us that operational problems occurred, and
       FEC did not have the dates that these employees were removed from the network.



Leon Snead & Company, P.C.	                   10
       We performed additional tests of personnel who separated after June 2, 2010, to
       determine if the problem impacting our original sample was corrected. We
       identified 14 persons who separated after June 2, 2010. Of this number, we found
       that seven employees’ accounts were not disabled until 5 to 41 days after the
       employee separated.
       We discussed this condition during the audit with OCIO officials who advised
       that they investigated the situation, and verified that there was a lack of
       communication between the affected offices. OCIO officials advised us that
       management has formed a team to resolve any residual communication issues,
       implement additional fail-safe methods to ensure the OCIO is notified about
       separations in a timely manner, and implement a policy and associated procedures
       to ensure consistency throughout the entire termination process.

       Recommendation

       6.	 Implement additional controls to ensure that former employees’ access to the
           network is terminated in accordance with FEC policies.

       Agency Response

       Management concurs with this finding and recommendation. Management
       investigated the situation and verified that there was indeed a lack of
       communication between the affected offices. Since that time, the Commission
       has formed a management team to first resolve any residual communication issues
       and secondly develop and implement a policy (and associated procedures) to
       ensure access to FEC information resources are properly terminated.

       Auditor Comments

       Since FEC officials have agreed to implement the recommendation, we have no
       additional comments.

   d.	 Access Controls Need Further Strengthening

       FEC needs to further strengthen access controls by implementing a user access
       authority certification process, and by implementing best practice controls over
       dial-up access to the FEC network.

       FEC acquired software in October 2009 to assist the agency in identifying users’
       specific access authorities, and had established a project to develop processes to
       implement this control requirement. However, because of the complexities
       involved with the configuration of the system, identifying the files and folders to
       which users have access, and ensuring the documentation provided to managers is
       informative and useful; the project implementation has been delayed.




Leon Snead & Company, P.C.	                   11
       We also compared FEC’s controls for remote access to best practice requirements,
       and found that FEC had not implemented sufficient controls for its dial-up access.
       Best practices require, among other things, the organization to employ automated
       mechanisms to facilitate the monitoring and control of remote access methods,
       and the use of cryptography to protect the confidentiality and integrity of remote
       access sessions. During the period of our review, we determined that the dial-up
       access for FEC currently did not meet the requirements relating to the use of
       cryptography to protect the information transmitted. In contrast, FEC requires
       personnel who access the network through connections other than dial-up access,
       to use multi-factor authentication, a virtual private network (VPN) connection,
       and full disk encryption.

       During our audit, we discussed these issues with OCIO officials. Concerning the
       review of user access authorities, we were advised that management is currently
       reassessing the resources and timeline required to provide useful network access
       information to users’ supervisors. In addition, OCIO officials advised that after
       performing a cost-benefit analysis of adding encryption to an already slow and
       rarely used dial-up service, the Commission has concluded it will be suspending
       its dial-up services as of September 30, 2010.

       Recommendations

       7.	 Assure sufficient resources are provided to complete the project dealing with
           the establishment of processes to enable periodic review of users’ access
           authorities.

       8.	 Require that dial-up access is properly secured as required by best practices,
           or terminate this type of access for users.

       Agency Response

       Management concurs with these recommendations and is currently reassessing the
       resources and timeline required to overcome the complexities involved with
       ensuring that technical information provided to non-technical business managers
       is informative and useful enough to make educated decisions about system access.

       After performing a cost-benefit analysis of adding encryption to an already slow
       and rarely used dial-up service, the Commission has concluded it would be more
       cost efficient to concentrate its efforts on continuing to support its more secure
       and reliable high speed connection. With this in mind, the Commission has
       suspended its dial-up services as of September 30, 2010.

       Auditor Comments

       Since FEC officials have agreed to implement the recommendations, we have no
       additional comments.



Leon Snead & Company, P.C.	                   12
   e.	 Security Awareness Training

       FEC needs to strengthen its control processes dealing with security awareness
       training and obtaining acknowledgement of rules of behavior for new employees
       and contractors. During our 2010 testing, we reviewed records detailing security
       awareness training provided to FEC employees and contractors. We found that
       for new employees and contractors the FEC does not require these personnel to
       receive the security awareness training, and acknowledge rules of behavior, prior
       to granting access to the FEC general support system. For example, we identified
       10 users that received the training two weeks or longer after coming onboard, or
       the records showed the individuals had never completed the training.

       OMB Circular A-130, Appendix III, General Support Systems, the document we
       used to determine best practices, requires that agencies provide security
       awareness training and rules of behavior to personnel prior to granting access to
       an agency’s systems.

       OCIO officials advised us that the FEC believes strengthening its Security
       Awareness Program would benefit the Commission. To this end, the FEC has
       decreased the training completion period for new employees to one business week
       from the date of hire. In our opinion, and as required in OMB Circular A-130, it
       is important that new employees and contractors become aware of privacy and
       security requirements prior to being allowed access to agency information and
       information systems.

       Recommendation

       9.	 Revise FEC procedures to require that all new personnel and contractors take
           the security awareness training, and acknowledge rules of behavior prior to
           being granted access to FEC systems.

       Agency Response

       Management partially concurs with this finding and recommendation. Although
       six of the 10 cited were still within FEC policy of three weeks to complete
       security awareness training and the remaining four would have been notified of
       their non-compliance during the 2010 security awareness completion review, the
       FEC does believe strengthening its Security Awareness Program would benefit
       the Commission. To this end, the FEC has decreased the three week completion
       period for new employees to one business week.

       Auditor Comments

       FEC officials partially concurred with our recommendation, and agreed to reduce
       the period for completing the security awareness training to one business week.
       We concur with this alternate approach to our recommendation.



Leon Snead & Company, P.C.	                  13
    f.	 Contingency Planning and COOP

         In 2009, we reported that the FEC had developed a Plan of Action and Milestones
         (POA&M) and made progress in developing a contingency plan and Continuity of
         Operations Plan (COOP) document that meets federal requirements and best
         practices. For 2010, we found that FEC had not yet completed the testing of the
         contingency plan and had not finalized the COOP. The FEC POA&M showed
         that the anticipated completion date for full development of the COOP and
         contingency plan, including testing of the plans is scheduled for November 2010.
         FEC officials advised us that the project was delayed due to funding issues.

         Recommendation

         10. Monitor the POA&M to ensure that the documents are completed and fully
             tested by the end of the 2010 calendar year.

         Agency Response

         Management concurs with this recommendation.

         Auditor Comments

         Since FEC officials have agreed to implement the recommendation, we have no
         additional comments.

    g.	 FEC Would Further Strengthen IT Security Program by Fully Adopting
        Best Practices

         FEC’s IT security program would be further strengthened if the agency adopted
         the best practices included in the NIST computer security controls publications.
         FEC is exempt from the Federal Information Security Management Act (FISMA) 1
         requirements, but could voluntarily adopt these best practices as other federal
         entities have elected to do.

         NIST is required by law to develop IT security standards and guidelines, and to
         consult with other federal agencies and offices, as well as the private sector to
         improve information security and avoid unnecessary and costly duplication of
         efforts in establishing security control requirements. NIST, in addition to its
         comprehensive public review and vetting process, collaborates with the Office of
         the Director of National Intelligence, the Department of Defense, and the
         Committee on National Security Systems to establish a common foundation for
         information security across the federal government. NIST notes that a common

1
  The E-Government Act (P.L. 107-347) recognizes the importance of information security to the economic and
National security interests of the United States. Title III of the E-Government Act, entitled the Federal Information
Security Management Act (FISMA), emphasizes the need for organizations to develop, document, and implement an
organization-wide program to provide security for the information systems that support its operations and assets.


Leon Snead & Company, P.C.	                                 14
       foundation for information security will provide the federal government and their
       support contractors, more uniform and consistent ways to manage the risk to
       organizational operations that results from operations and use of information
       systems. In addition, NIST notes that a common foundation for information
       security will also provide a strong basis for reciprocal acceptance of security
       authorization decisions and facilitate information sharing.

       During our 2010 audit, we identified four other federal entities that were also
       exempt from FISMA requirements. To determine how these agencies addressed
       the establishment of IT security standards, we reviewed selected documentation
       from the agencies. Details follow.

                  Agency                  Actions Taken by Agency
         Government              GAO’s 2009 Performance and Accountability Report notes that
         Accountability Office   even though GAO is not obligated by law to comply with FISMA,
                                 GAO has adopted FISMA requirements to strengthen its
                                 information security program. GAO added that FISMA and related
                                 federal guidance from the Office of Management and Budget
                                 constitute the cornerstone of its security program, establishing the
                                 procedures and practices that strengthen their protections through
                                 the implementation of security “best practices. GAO establishes its
                                 security standards based on the federal guidance found in the
                                 National Institute of Standards and Technology (NIST) 800 series
                                 and Federal Information Processing Standards publications. GAO
                                 further noted that as existing NIST guidance is updated and new
                                 guidance disseminated, GAO has adjusted its internal information
                                 technology security policies and procedures.
         The Smithsonian         The Institution’s website notes that the agency voluntarily
         Institution             complies with FISMA requirements because they are consistent
                                 with the agency’s IT strategic goals.
         Department of Defense   Employ security controls equal or higher than FISMA minimum
                                 requirements.
         Central Intelligence    Employ security controls equal or higher than FISMA minimum
         Agency                  requirements.

       During our audit, we discussed this matter with OCIO officials who advised that
       they do not concur that FEC should adopt NIST standards as best practice. OCIO
       officials advised that it would be improper for the FEC to disregard the will of
       Congress. OCIO officials noted that it was not the original intent of NIST to
       impose a set of standards that all federal agencies must adhere to. OCIO officials
       advised that FEC does utilize NIST as one source of guidance when determining
       best practice.

       As mentioned above, other exempt federal agencies have voluntarily adopted the
       FISMA requirements and NIST security standards. In addition, FEC’s Office of
       General Counsel provided correspondence, as part of documentation to update
       those statues, regulations and policies that are applicable and not applicable to
       FEC, that indicated that if FEC elected, the agency could adopt exempted


Leon Snead & Company, P.C.                       15
       regulations as a model. Therefore, it appears that the General Counsel has already
       determined it is allowable for FEC to adopt exempted regulations.

       As FEC officials discussed above, organizations have flexibility in applying the
       baseline security controls in accordance with the guidance provided in NIST
       Special Publication 800-53. NIST notes that the minimum controls could be
       tailored up, down, or an agency could adopt another control commensurate with
       risk. FEC has rated the GSS as a moderate risk system and should adopt the
       NIST minimum controls to address the risks to this system, or other controls
       commensurate with risk. Due to FEC’s significant reliance on information
       technology to support the agency’s mission, adoption of the NIST IT security
       standards framework would improve the agency’s ability to protect IT systems
       from constantly changing information security threats and risks. In addition, if
       FEC does not adopt a set of best practice security controls, FEC will have
       difficulty in setting security standards for FEC IT contractors’ performance and
       will not have benchmarks to effectively monitor contractors performing sensitive
       IT security operations for FEC.

       FEC officials have indicated that when the “FEC deviates from the NIST model it
       is only after careful evaluation, and it is believed that the agency has either a
       better or more cost effective method of achieving its IT security goals.” FEC has
       decided not to implement strengthened access controls due to user concerns. FEC
       did not provide an analysis of the risks to the system due to this lessening of
       minimum control requirements, establish alternative control processes, or perform
       any other analytical review that would support agency decisions for deviations
       from IT security best practices. While longer passwords, more frequent password
       changes, and less frequent use of the same password all add complexities to users,
       decisions should be primarily based on a risk-based analysis.

       Recommendation

       11. Adopt as a model the NIST IT security controls established in FIPS 200,
           Minimum Security Requirements for Federal Information and Information
           Systems, and SP 800-53, Recommended Security Controls for Federal Systems
           and Organizations.

       Agency Response

       Management disagrees with this finding and recommendation except to the extent
       it acknowledges that the FEC may choose to voluntarily apply National Institute
       of Standards and Technology (“NIST”) IT security standards. As the report notes,
       information systems security standards promulgated by NIST are derived from the
       Federal Information Security Management Act ("FISMA"), 44 U.S.C. 3541 et
       seq. FISMA incorporates the Paperwork Reduction Act’s definition of "agency,"
       which specifically excludes the Commission. See 44 U.S.C. 3502(1) (B).
       Accordingly, FISMA’s requirement that agencies follow NIST guidelines is not



Leon Snead & Company, P.C.                    16
       applicable to the Commission. Nevertheless, the FEC has voluntarily adopted
       some of these best practices on a case-by-case basis, based on its own assessment
       of risk, and reserves the right to implement only practices that it considers
       advantageous to its computing environment.

       Auditor Comments

       We believe that FEC’s IT security program would be strengthened by adopting
       and meeting the NIST minimum security requirements. As noted in the report,
       other agencies that are exempt from FISMA compliance have agreed to adopt the
       NIST security requirements. For example, GAO has stated that it adopted FISMA
       requirements to strengthen its information security program, and that FISMA and
       related federal guidance from the Office of Management and Budget constitute
       the cornerstone of its security program, establishing the procedures and practices
       that strengthen their protections through the implementation of security “best
       practices.” We believe that FEC would achieve the same level of assurance if it
       adopted the FISMA requirements.

A summary of the status of prior year findings is included as Appendix 1.

We noted other control deficiencies over financial reporting and its operation that we
have reported to the management of the FEC and those charged with governance in a
separate letter dated November 12, 2010.

COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws and regulations, as
described in the Responsibilities section of this report, disclosed no instance of
noncompliance with laws and regulations that is required to be reported under
Government Auditing Standards and OMB Bulletin 07-04 (as amended).

Under OMB Bulletin 07-04, auditors are generally required to report whether the
agency’s financial management systems substantially comply with the federal financial
management systems requirements, applicable federal accounting standards, and the
United States Government Standard General Ledger at the transaction level specified in
the Federal Financial Management Improvement Act (FFMIA). The Accountability of
Tax Dollars Act, which requires the FEC to prepare and submit audited financial
statements to Congress and the Director of OMB, did not extend to FEC the requirement
to comply with FFMIA.

RESPONSIBILITIES

Management Responsibilities

Management of the FEC is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining,



Leon Snead & Company, P.C.                    17
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act (FMFIA) are met; and (3)
complying with applicable laws and regulations. In fulfilling this responsibility,
estimates and judgments by management are required to assess the expected benefits and
related costs of internal control policies.

Auditor Responsibilities

Our responsibility is to express an opinion on the financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements (as
amended). Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes: (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered the FEC’s internal control over
financial reporting by obtaining an understanding of the agency’s internal control,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements.

We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin 07-04 (as amended) and Government Auditing
Standards. We did not test all internal controls relevant to operating objectives as
broadly defined by FMFIA. Our procedures were not designed to provide an opinion on
internal control over financial reporting. Consequently, we do not express an opinion
thereon.

As required by OMB Bulletin 07-04 (as amended), with respect to internal control related
to performance measures determined to be key and reported in Management’s Discussion
and Analysis, we made inquiries of management concerning the methods of preparing the
information, including whether it was measured and presented within prescribed
guidelines; changes in the methods of measurement or presentation from those used in
the prior period(s) and the reasons for any such changes; and significant assumptions or
interpretations underlying the measurement or presentation. We also evaluated the
consistency of Management’s Discussion and Analysis with management’s responses to
the foregoing inquiries, audited financial statements, and other audit evidence obtained
during the examination of the financial statements. Our procedures were not designed to



Leon Snead & Company, P.C.                     18
                                                                                               Appendix 1



                        Status of Prior Year Reportable Conditions, and
                     Non-Compliance with Significant Laws and Regulations

                           Recommendation                                  Status As Of September 30, 2010
1.    Strengthen controls over the accruals of accounts payable, and       Recommendation open – reported
      ensure that supervisory reviews of accounts payable accruals are     in current year significant
      performed.                                                           deficiency.
2.    Update OCFO policies to incorporate the new strengthened             Recommendation closed.
      processes for indentifying and posting accounts payable accruals.
3.    Re-emphasize, in writing, to purchase cardholders and managers       Recommendation closed.
      their responsibilities associated with managing the purchase card
      program payment process and the need for effective internal
      controls as discussed in FEC Procurement Procedures.
4.    Update and issue the Accounting Manual within the next six           Recommendation closed.
      months.
5.    Establish a policy that requires OCFO policies and procedures to     Recommendation closed.
      be periodically reviewed and updated such as on a two to three
      year cycle.
6.    Partner with FEC service providers to develop a time-phased plan     Recommendation open – reported
      to convert the manual systems and processes to automated             in current year significant
      systems that are integrated or interfaced with the core accounting   deficiency.
      system. Establish a goal of converting these systems by the end
      of 2010.
7. Formally adopt as a model for FEC the NIST IT security controls         Recommendation open – reported
   established in FIPS 200, Minimum Security Requirements for              in current year significant
   Federal Information and Information Systems, and SP 800-53,             deficiency.
   Recommended Security Controls for Federal Systems and
   Organizations.
8. Perform an annual independent assessment to determine whether           Recommendation closed. 2
   FEC’s agency-wide IT security program meets minimum security
   controls established by NIST.
9. Implement a process to require users’ supervisors to recertify a        Recommendation open – reported
    user’s access authorities annually, and maintain documentation to      in current year significant
    support actions taken to address any changes required by the           deficiency.
    reviews.
10. Adopt Federal Desktop Core Configuration (FDCC) standards              Recommendation open – reported
    and implement these standards by the end of the 2010 fiscal year.      in current year significant
                                                                           deficiency.
11. Include workstations and devices attached to the network in            Recommendation open – reported
    periodic scans performed by FEC.                                       in current year significant
                                                                           deficiency.
12. Maintain documentation showing actions taken to address the            Recommendation closed.
    problems identified by the vulnerability scans.
13. Implement best practice controls over FEC’s dial-up access.            Recommendation open – reported
                                                                           in current year significant
                                                                           deficiency.


 2
     This recommendation is closed since the OIG has the authority to perform such an audit.


 Leon Snead & Company, P.C.                               20
                                                                                             Appendix 1


14. Review the circumstances surrounding the untimely removal of          Recommendation open – reported
    the separated employee’s access to FEC’s network, and ensure          in current year significant
    controls are in place to remove the employee’s access                 deficiency.
    immediately upon departure.
15. Develop an OCIO policy that requires standards, guidelines and        Recommendation closed.
    policies to be dated, authenticated with a signature, and scheduled
    for review and update.
16. Prepare a detailed POA&M for items identified in the risk             Recommendation closed.
    assessment of the GSS.
17. FEC should develop and enforce policies and procedures for debt       Recommendation closed.
    collection that will ensure compliance with the DCIA and OMB
    A-129.




Leon Snead & Company, P.C.                               21
                                                                                       Appendix 2


                                  Federal Election Commission
 

                                 2010 Financial Statement Audit
 

                              Management Responses to Audit Findings
 



Auditor Recommendation #1: Provide additional training to personnel involved in accounts
payable control processes, and stress to supervisors that reviews of accounts payable accruals
must be more effective. Ensure when errors are noted, the reviewer follows-up to ensure
corrections are made.

Management Response to Recommendation #1: Management concurs that controls over the
accounts payable accrual process should be strengthened to ensure that potential misstatements
are identified and corrected in a timely manner. However, FEC management does not concur
that the $140 thousand misstatement noted in the auditor’s report contributes to a significant
deficiency in internal control over financial reporting. The results of audit testing and FEC
management’s own subsequent review of the accounts payable accrual indicated that this error
was an isolated event and not indicative of a systemic breakdown in internal controls. In
addition, the noted misstatement is immaterial to the FEC’s financial statements. Total liabilities
for the FEC were $7.7 million as of September 30, 2010, and the overstatement to accounts
payable of $140 thousand represented two tenths of a percent (0.20%) of the Net Cost of
Operations.

During FY 2011, management will perform the following to strengthen controls over the
accounts payable accrual process:
   •	 Perform a comprehensive review of the accounts payable accrual processes; and
   •	 Provide additional training to ensure that agency guidelines are followed and that
       transactions are processed, reviewed, and reconciled consistently, completely, timely, and
       accurately.

Auditor Recommendation #2: Convert FEC manual systems and processes to automated
systems that are integrated or interfaced with the core accounting system.

Management Response to Recommendation #2: Management concurs that it is important for
agencies to consider automating manual processes whenever it is appropriate and cost-effective
to do so. As an example, the FEC converted its fixed assets to the General Services
Administration (GSA) Fixed Asset System (Subsidiary Ledger) which has a direct interface
within the GSA Financial Management System, effective in FY 2010.

Management disagrees with the recommendation that all manual processes should be automated.
OMB Circular A-127, as revised, 2009, states that a financial management system “includes the
core financial systems and the financial portions of mixed systems necessary to support financial
management, including automated and manual processes, procedures, and controls, data,
hardware, software, and support personnel dedicated to the operation and maintenance of
system functions.” While the OCFO does have some manual steps in its financial process, the
office has implemented compensating controls consistent with industry best practices to
eliminate unnecessary risks.



Leon Snead & Company, P.C.	                    22
                                                                                      Appendix 2



The FEC continues to evaluate the roles and responsibilities of all stakeholders to establish an
electronic interface between NFC and GSA payroll and financial management systems and plans
to complete the integration of those systems in FY 2011.

Additionally, the Accounts Receivable balance is immaterial to the FEC’s financial statements
and the volume of transactions is minimal. The expense of migration to an automated process is
currently not in the best interest of the FEC. Doing so would provide little benefit to the agency
or the Federal Government. This practice is consistent with the latest draft of A-127 circulated
October 15, 2010.

Auditor Recommendation #3: Ensure that FEC baseline configuration standards are
implemented in accordance with FDCC requirements for all workstations.

Auditor Recommendation #4: Perform periodic assessments of baseline configuration settings
as part of FEC’s continuous monitoring program.

Management Response to Recommendations #3 and #4: Management partially concurs with
these recommendations and plans to make use of these best practices once the FEC’s FDCC
project is fully implemented. However, the FEC reserves the right to implement only those
settings that it considers advantageous to its computing environment. As indicated, FEC is
already 75 percent FDCC compliant, and has developed a plan and timetable to achieve near 93
percent compliance. Per FDCC specifications, any recommended setting not implemented will
include a documented justification.

Auditor Recommendation #5: Include all components of the general support system, including
workstations, into the organization’s vulnerability scanning process to ensure that the general
support system, in its entirety, is periodically assessed.

Management Response to Recommendation #5: Management concurs with this
recommendation, and plans to make use of additional workstation vulnerability scanning once
the FEC’s FDCC project is fully implemented. As a proactive solution and compensating
control, the FEC has implemented an automated patching process to ensure all workstation
operating system vulnerabilities are properly patched. Other compensating controls the
Commission employs are real-time virus and adware detection. The Commission specifically
scans workstations hard-drives, CD-ROMs, and flash drives for malicious code such as viruses;
worms, trojan horses, spyware, keyboard loggers etc. Additional levels of workstation security
includes workstation firewalls, real-time virus and adware detection and prevention, operating
system and application password standards, two factor authentication, whole hard drive
encryption, and 15 minute account lock-out.

Auditor Recommendation #6: Implement additional controls to ensure that former employees’
access to the network is terminated in accordance with FEC policies.

Management Response to Recommendation #6: Management concurs with this finding and
recommendation. Management investigated the situation and verified that there was indeed a



Leon Snead & Company, P.C.                     23
                                                                                       Appendix 2


lack of communication between the affected offices. Since that time, the Commission has
formed a management team to first resolve any residual communication issues and secondly
develop and implement a policy (and associated procedures) to ensure access to FEC information
resources are properly terminated.

Auditor Recommendation #7: Assure sufficient resources are provided to complete the project
dealing with the establishment of processes to enable periodic review of users’ access authorities.

Auditor Recommendation #8: Require that dial-up access is properly secured as required by
best practices, or terminate this type of access for users.

Management Response to Recommendations #7 and #8: Management concurs with these
recommendations and is currently reassessing the resources and timeline required to overcome
the complexities involved with ensuring that technical information provided to non-technical
business managers is informative and useful enough to make educated decisions about system
access.

After performing a cost-benefit analysis of adding encryption to an already slow and rarely used
dial-up service, the Commission has concluded it would be more cost efficient to concentrate its
efforts on continuing to support its more secure and reliable high speed connection. With this in
mind, the Commission has suspended its dial-up services as of September 30, 2010.

Auditor Recommendation #9: Revise FEC procedures to require that all new personnel and
contractors take the security awareness training, and acknowledge rules of behavior prior to
being granted access to FEC systems.

Management Response to Recommendation #9: Management partially concurs with this
finding and recommendation. Although six of the 10 cited were still within FEC policy of three
weeks to complete security awareness training and the remaining four would have been notified
of their non-compliance during the 2010 security awareness completion review, the FEC does
believe strengthening its Security Awareness Program would benefit the Commission. To this
end, the FEC has decreased the three week completion period for new employees to one business
week.

Auditor Recommendation #10: Monitor the POA&M to ensure that the documents are
completed and fully tested by the end of the 2010 calendar year.

Management Response to Recommendation #10: Management concurs with this
recommendation.

Auditor Recommendation #11: Adopt as a model the NIST IT security controls established in
FIPS 200, Minimum Security Requirements for Federal Information and Information Systems,
and SP 800-53, Recommended Security Controls for Federal Systems and Organizations.

Management Response to Recommendation #11: Management disagrees with this finding
and recommendation except to the extent it acknowledges that the FEC may choose to



Leon Snead & Company, P.C.                     24
                                                                                    Appendix 2


voluntarily apply National Institute of Standards and Technology (“NIST”) IT security standards.
As the report notes, information systems security standards promulgated by NIST are derived
from the Federal Information Security Management Act ("FISMA"), 44 U.S.C. 3541 et seq.
FISMA incorporates the Paperwork Reduction Act’s definition of "agency," which specifically
excludes the Commission. See 44 U.S.C. 3502(1)(B). Accordingly, FISMA’s requirement that
agencies follow NIST guidelines is not applicable to the Commission. Nevertheless, the FEC
has voluntarily adopted some of these best practices on a case-by-case basis, based on its own
assessment of risk, and reserves the right to implement only practices that it considers
advantageous to its computing environment.




Leon Snead & Company, P.C.                    25
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
